*.«
4 •

. J.

• . .i

«

*•

* •>

SUBMITTED PER MAILEOX RULE Houston v. Lack 487 US 266 *
No.

IN THE
SUPREME COURT OF THE UNITED STATES

Brandon Mark Bjerknes
(Your Name)

— PETITIONER

VS.United States of America
— RESPONDENT(S)
PROOF OF SERVICE
^

Brandon Mark Bjerknes

, do swear or declare that on this date,
August 10th !"
, 202L-, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF .CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names-and addresses of those served are as follows:
Solicitor General of the United States, Room 5614, Department of justice
950 Pennsylvania Ave, N.W.
Washington, D.G.
I declare under penalty of perjmy that the foregoing is true and correct.'
Executed on

August 10th

